audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants to the Milwaukee, Wisconsin Police Department
GR-50-00-024
August 17, 2000
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Milwaukee, Wisconsin Police Department (Milwaukee PD).  The purpose of the grants is to enhance community policing.  The Milwaukee PD was awarded a total of $6,418,162 to hire 75 full time entry level sworn officers and redeploy the equivalent of 31.7 existing full time officers (FTE) from administrative duties to community policing.

As a result of our audit, we are concerned that community policing has not been enhanced to its fullest due to the following deficiencies that resulted in $3,128,768 in dollar-related findings. 1

The grantee did not retain 15 of the 25 funded positions under its initial UHP grant for 11 months of the retention period.  As a result, we are questioning $343,750.  Further, our review indicated it is unlikely that the Milwaukee PD will retain the 25 positions under its supplemental UHP award.  Therefore, we are recommending that COPS withhold $477,050 until Milwaukee develops an adequate retention plan.
	Although the grantee declined $1,875,000 for 25 officers, or one half of the supplemental hiring award, the funds remained available for drawdown.  We recommend these funds be deobligated and put to better use.
	We could not substantiate that the Milwaukee PD redeployed to community policing the 17.3 officer FTEs funded by the MORE 96 grant.  The Milwaukee PD purchased and fully implemented computer equipment that would allow it to free up existing officer positions from administrative duties to community policing.  However, police officials could not demonstrate how much administrative time, if any was being saved.  Further, we could not substantiate that any FTEs had been redeployed.  As a result, we are questioning $432,968 in reimbursed funds.
 
	Several monitoring reports were not submitted in a timely manner.


These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.
 

Footnote
The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use; however, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and definitions of questioned costs and funds to better use.